Case: 18-13635

Date Filed:
(1 of 7)
03/25/2019

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-13635
Non-Argument Calendar
________________________
D.C. Docket No. 9:17-cv-80272-KAM
GALE ZAMORE,
Plaintiff - Appellant,
versus
DEUTSCHE BANK NATIONAL TRUST COMPANY,
individually, and as Trustee for JP Morgan Mortgage Acquisition Trust
2007-CH5 Asset Backed Pass-Through Certificates Series 2007-CH5,
SELECT PORTFOLIO SERVICING, INC.,
Defendants - Appellees.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(March 25, 2019)
Before ROSENBAUM, JILL PRYOR, and ANDERSON, Circuit Judges.
PER CURIAM:

Case: 18-13635

Date Filed:
(2 of 7)
03/25/2019

Page: 2 of 6

Plaintiff Gale Zamore 1 filed a lawsuit against Defendants Deutsche Bank
National Trust Company (“Deutsche Bank”) and Select Portfolio Servicing, Inc.
(“Select Portfolio”), seeking a declaration that her mortgage loan had been
rescinded under the Truth in Lending Act (“TILA”), 15 U.S.C. § 1635. Based on a
prior foreclosure action between the parties that resulted in a final judgment, the
district court dismissed the lawsuit for lack of jurisdiction under the RookerFeldman 2 doctrine, which prevents federal courts from reviewing final state-court
decisions. After careful review, we affirm.
I.
Zamore refinanced a mortgage loan in January 2007, and at that time,
executed a promissory note in the amount of $246,000, which was secured by a
mortgage in favor of the lender, Chase Bank USA, N.A. The note was later
assigned to Deutsche Bank, which in August 2009 commenced foreclosure
proceedings in state court. Around two months later, Zamore sent Deutsche Bank
a notice that she was exercising her right to rescind the mortgage transaction under
the TILA. Although the notice was docketed in the state-court case, Zamore did
not raise rescission as an affirmative defense, and it was not otherwise addressed
1

We note that, based on the underlying mortgage documents in this case, the plaintiff’s
first name appears to be spelled “Gail,” not “Gale.” The plaintiff’s counseled filings, however,
appear undecided on the matter, switching back and forth between the two spellings.
2

Rooker v. Fid. Trust Co., 263 U.S. 413 (1923); Dist. of Columbia Court of Appeals v.
Feldman, 460 U.S. 462 (1986).
2

Case: 18-13635

Date Filed:
(3 of 7)
03/25/2019

Page: 3 of 6

by the state court. The state court entered a final judgment of foreclosure on May
29, 2013.
Zamore sought relief from the judgment in state court. She filed a motion to
vacate the judgment, raising the issue of rescission. That motion was denied, and
the denial was affirmed on appeal. It appears that Zamore also filed a pro se quiettitle action in July 2014, raising various claims. Her complaint was dismissed in
October 2015, and the dismissal was affirmed on appeal.
In 2017, Zamore filed this action against Deutsche Bank and Select
Portfolio. The complaint alleges two causes of action. Count I is a request for
declaratory relief in the form of an order declaring that the mortgage loan had been
rescinded as of 2009 pursuant to 15 U.S.C. § 1635(b). Count II alleges that the
defendants are liable for damages based on the rescission.
Two weeks after filing suit, Zamore filed a motion for a temporary
restraining order “to enjoin Deutsche’s continued possession of the property, to
return possession of the property to Petitioner, and to enjoin the Defendant from
continuing to place the property on the market for sale or from selling the property
pending the outcome of this action.”
The defendants moved to dismiss the complaint on several grounds,
including that Zamore’s claims were barred by the Rooker-Feldman doctrine. The
district court agreed that Rooker-Feldman barred the action, stating that Zamore’s
3

Case: 18-13635

Date Filed:
(4 of 7)
03/25/2019

Page: 4 of 6

purpose in filing the lawsuit was “to challenge the validity of the foreclosure
proceedings, including the Final Judgment.” The court further noted that Zamore
had raised her rescission-based arguments in state court. Zamore now appeals.
II.
We review de novo the application of the Rooker-Feldman doctrine.
Lozman v. City of Riviera Beach, Fla., 713 F.3d 1066, 1069–70 (11th Cir. 2013).
Broadly speaking, the Rooker-Feldman doctrine prevents federal district courts
from reviewing state-court decisions. Nicholson v. Shafe, 558 F.3d 1266, 1270
(11th Cir. 2009). More precisely, it applies to “cases brought by state-court losers
complaining of injuries caused by state-court judgments rendered before the
district court proceedings commenced and inviting district court review and
rejection of those judgments.” Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280, 284 (2005).
Although Rooker-Feldman is a narrow doctrine, “a state court loser cannot
avoid Rooker-Feldman’s bar by cleverly cloaking her pleadings in the cloth of a
different claim.” May v. Morgan Cty., Ga., 878 F.3d 1001, 1004 (11th Cir. 2017).
Even after Exxon Mobil, we have continued to apply the doctrine “both to federal
claims raised in the state court and to those ‘inextricably intertwined’ with the state
court’s judgment.” Id. at 1005 (quoting Casale v. Tillman, 558 F.3d 1258, 1260–
61 (11th Cir. 2009)). “A claim is inextricably intertwined if it would effectively
4

Case: 18-13635

Date Filed:
(5 of 7)
03/25/2019

Page: 5 of 6

nullify the state court judgment, or [if] it succeeds only to the extent that the state
court wrongly decided the issues.” Casale, 558 F.3d at 1260 (quotation marks
omitted). The doctrine does not apply, however, where a party did not have a
“reasonable opportunity” to raise her claim in the state proceeding. Id.
Here, the district court did not err by dismissing Zamore’s complaint for lack
of jurisdiction because the claims raised were “inextricably intertwined” with the
state foreclosure judgment. The foreclosure judgment recognized that Zamore’s
debt to Deutsche Bank was valid and that Deutsche Bank was entitled to foreclose
the property in question. Granting Zamore’s current request for declaratory relief,
Part of the
in the form of an order stating that her mortgage loan was rescinded as of 2009, rejected
AMOS test

“would effectively nullify the state court judgment” granting foreclosure based on
the validity of the debt. Casale, 558 F.3d at 1260. It is, therefore, barred by
Rooker-Feldman.
Zamore’s arguments to avoid the application of Rooker-Feldman are
unpersuasive. She notes that rescission under the TILA was not raised or decided
in the state foreclosure proceeding, but nothing in the record indicates that Zamore
lacked a reasonable opportunity to raise that claim. See id. She was aware of such
a claim as of October 2009, well before the judgment in May 2013, and she does
not suggest that the state court could or would not have considered the claim. In
fact, Zamore attempted to raise these arguments to the state courts, but it appears
5

Case: 18-13635

Date Filed:
(6 of 7)
03/25/2019

Page: 6 of 6

she did so too late. Arguments that were not offered to or were rejected by the
state courts are not excepted from Rooker-Feldman’s grasp. See id. at 1261.
Zamore also contends that Rooker-Feldman does not apply because she did
not expressly challenge the foreclosure judgment or request an order invalidating
that judgment. But “[t]hough the federal case may not be styled as an appeal of a
state court judgment, Rooker-Feldman is not so easily bypassed.” May, 878 F.3d
at 1005. And for the reasons explained above, the relief that Zamore did request—
a declaration that the mortgage loan had been rescinded as of 2009—would
effectively invalidate the foreclosure judgment.

So Zamore’s current claim,

however phrased, is “inextricably intertwined” with the state court’s judgment.
See id. (“A claim that at its heart challenges the state court decision itself—and not
the statute or law which underlies that decision—falls within the doctrine because
it ‘complain[s] of injuries caused by state-court judgments’ and ‘invite[s] . . .
review and rejection of those judgments.’” (quoting Exxon Mobile, 544 U.S. at
284)).
For these reasons, the district court did not err in dismissing Zamore’s
complaint under the Rooker-Feldman doctrine. We therefore do not address the
district court’s alternative grounds for dismissal.
AFFIRMED.

6

Case: 18-13635

Date Filed:
(7 of 7)
03/25/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

March 25, 2019
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-13635-GG
Case Style: Gale Zamore v. Deutsche Bank National Trust, et al
District Court Docket No: 9:17-cv-80272-KAM
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system,
unless exempted for good cause. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has this
day been entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing
en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for
rehearing or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rules.
Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney's fees and
an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In
addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for
rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on
the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for
writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
Pursuant to Fed.R.App.P. 39, costs taxed against the appellant.
Please use the most recent version of the Bill of Costs form available on the court's website at www.ca11.uscourts.gov.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature
block below. For all other questions, please call Joe Caruso, GG at (404) 335-6177.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna Clark
Phone #: 404-335-6161
OPIN-1A Issuance of Opinion With Costs

